Tammy Noergaard, In Propria Persona
1361 Spectrum
Irvine, CA 92618
(949)842-5942
tammynoergaard@yahoo.cona
April 15, 2021
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Re: Tammy Noergaard v. Christian Noergaard, Case. No. 20-1428: Point Blank Consent for
Amicus
Dear Clerk of the Court:
I am the Petitioner in the above-referenced matter.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United States,
Petitioner hereby grants blanket consent to the filing of amicus curiae briefs in this matter.
Thank you.
Sincerely,

Tanimy Noergaard
In Propria Persona
cc:

Stephen Ruben, Counsel for Respondent
Stephen Ruben, sruben@rubenlawfirm.com

RECEIVED
APR 2 0 2021
1

LERK

SUPREME COURT U.S.

